                                             OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




OIG was contacted by a graduate student in January of 2002. At that time the student did not
identify himself and explained that he had concerns that his graduate advisor was improperly using
NSF, HIH and ADA (American Diabetes Association) grant funds. He stated that his advisor may
retaliate against him by refusing to let him finish his degree. We advised the student that he could
either provide the information at that time or wait until he graduated in May and provide the
information at that time. The student elected to wait and provide the information after he completed


Since that time, OIG has been in contact with the student and learned that he will not earn his degree
until August. We have decided, that at this time, this matter should be closed until the student is
ready to provide the necessary information to pursue the matter formally.

       Accordingly, this case is closed.




                                                                                                         I
